             OFFICE OF

      THE INSPECTOR GENERAL



  SOCIAL SECURITY ADMINISTRATION





     PERFORMANCE MEASURE

     FOR THE PERCENT OF THE

   CONTINUING DISABILITY REVIEW

   MULTI-YEAR PLAN COMPLETED


   February 2001    A-01-00-10011





MANAGEMENT ADVISORY

      REPORT

                                   Office of the Inspector General

February 23, 2001

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Management Advisory Report: Performance Measure for the Percent of the Continuing
Disability Review Multi-Year Plan Completed (A-01-00-10011)


OBJECTIVE
Our objective was to assess the reliability of the data used by the Social Security
Administration (SSA) to measure the percent of the continuing disability review (CDR)
multi-year plan completed by the end of Fiscal Year (FY) 1999.

BACKGROUND
SSA has been required to conduct periodic CDRs on individuals receiving Disability
Insurance (DI) benefits since the early 1980s.1 Congress has enacted new legislation
since 1994 that requires CDRs and redeterminations on Supplemental Security Income
(SSI) recipients as well. For example, the Personal Responsibility and Work
Opportunity Reconciliation Act of 1996, Public Law (P.L.) 104-193, required additional
CDRs and redeterminations related to the SSI workload. Under this legislation, SSA
must perform: (1) disability redeterminations for 18 year olds using adult eligibility
criteria for initial claims; (2) CDRs not later than 12 months after birth for children for
whom low birth-weight is a contributing factor material to the determination of disability;
and (3) CDRs at least once every 3 years for all children under age 18 with
impairment(s) that are likely to improve (or, at the option of the Commissioner,
recipients whose impairments are unlikely to improve). The Contract with America
Advancement Act of 1996, P.L. 104-121, provided more than $4 billion in funding for FY
1996 through FY 2002 to assist SSA in performing CDRs so it could become current
with these reviews. Appendix C provides a list of relevant legislation.




1
 The purpose of a CDR is to determine whether a disabled beneficiary is still medically eligible to receive
benefits.
Page 2 - William A. Halter


In August 1996, SSA issued a 7-year plan for processing CDRs to meet the provisions
of P.L 104-121. SSA updated this multi-year plan in March 1998 to reflect changing
conditions as a result of additional workloads, new legislation, new data and revised
assessments. The new plan estimates that 9.3 million CDRs will have been completed
between FYs 1996 and 2002. SSA updated the plan again in May 2000 and plans to
issue the revised multi-year plan during FY 2001.

One of the Government Performance and Results Act (GPRA) performance measures
established by SSA is completing a specific percentage of its CDR multi-year plan.
GPRA requires SSA to develop performance indicators that assess the relevant service
levels and outcomes of each program activity. GPRA also calls for a description of the
means employed to verify and validate the measured values used to report on program
performance. As of the end of FY 1999, SSA reported it had completed 45.9 percent of
the CDR multi-year plan. SSA's GPRA goal for FY 1999 was completing 44 percent of
the multi-year plan.

RESULTS OF REVIEW

CDR BASELINE DATA

We were unable to audit the FY 1999 CDR multi-year plan performance measure since
SSA was unable to provide complete baseline data used in preparing the plan. SSA
staff told us that in July 1997 the Office of Disability (OD) prepared a data file
representing everyone currently on the disability rolls who was eligible for a CDR. This
would include everyone within the DI and SSI programs unless they were part of one of
the exempted categories, such as disabled adult children age 65 and over. This data
file provided the baseline information on individuals at the start of FY 1998 and was
used in preparing the March 1998 CDR multi-year plan. However, when we requested
a copy of this file we were told that the data file had expired after 2 years on SSA's
mainframe computer system.

This 1997 baseline data file contained key information on those individuals eligible for
CDRs. For example, the records within the file would have noted the age of the
individual,2 when the next CDR was scheduled,3 whether the individual was part of an
excluded category, and other factors relevant to determining the likelihood of medical
improvement. We had requested this data file to determine whether the starting point
in SSA's multi-year plan was reliable.

Even though SSA was unable to provide the baseline data, SSA was able to provide
copies of the actuarial worksheets and associated assumptions used to create the
March 1998 CDR multi-year plan. However, the workpapers contained only summary
2
 This is relevant when determining childhood and adult break-outs, as well as age-18 redetermination
workloads. In the case of children, SSA now performs only full medical CDRs since it has not yet
determined that a mailer questionnaire is appropriate for children.
3
 SSA staff reported that some records were missing this diary data. In such cases, SSA had to determine
how best to treat these cases using other available information.
Page 3 - William A. Halter


totals and categorizations of the OD baseline data used within the actuarial
calculations. Since we were unable to verify the reliability of OD's population of
individuals eligible for a CDR at the start of FY 1998, we were not in a position to
comment on the reliability of the workload figures projected by SSA’s Office of the
Actuary.

The CDR multi-year plan performance measure is a ratio of two CDR numbers — a
numerator representing the number of CDRs performed to date under the 7-year plan
and a denominator representing the total number of CDRs to be performed over the
7-year period. While the overall CDR workload for the 7-year period could not be
verified, we assessed the reliability of the data related to the number of CDRs
processed in an earlier audit.4 In that audit we determined that the CDR data provided
by SSA to support the number of CDRs processed in FY 1998 was reliable.

CDR MULTI-YEAR PLAN AS A PERFORMANCE INDICATOR

The current CDR multi-year plan performance measure pertains to the CDR workload
until FY 2002, at which time the CDR multi-year plan expires. SSA has alternatives to
using the multi-year plan as the basis for reporting on the status of the CDR workload.
Instead, SSA could develop a performance measure that provides information on the
status of the CDR backlog at the end of each FY. This would be preferable since: (1) it
is consistent with SSA’s assertion of compliance with CDR legislative requirements in
SSA’s financial statements; (2) SSA can continue to use this measure after FY 2002
when the current multi-year plan expires; and (3) it provides Congress with a clear
measure of SSA's ability to reduce the CDR backlog and then remain current with
CDRs due each year.

Reporting on the Multi-Year Plan Performance Measure

SSA periodically restates the CDR multi-year plan to adjust for new circumstances, as it
did in March 1998 and in May 2000. Such adjustments change the "percent complete"
figures as well as the ultimate workload goal. For instance, the March 1998 revision
increased the number of CDRs to be conducted during FYs 1996 to 2002 from 8.2
million to 9.3 million. The increase means that the CDRs conducted between FYs 1996
and 1997 went from 14.5 percent of the old multi-year plan to 12.8 percent of the new
multi-year plan. While SSA needs to perform these adjustments to account for new
workloads and changing circumstances over the 7-year period, the adjustments can
confuse readers of SSA's performance documents.

We asked SSA staff whether they plan to restate the performance indicator in FY 2001
based on the May 2000 revision of the CDR multi-year plan. An OD staff member said
that SSA may simply restate the previous year figures using the new 7-year workload
number. Should this occur, the FY 1999 performance measure being audited by OIG
would change as well.

4
 SSA/OIG A-01-99-91002, “Performance Measure Review: Reliability of the Data Used to Measure
Continuing Disability Reviews,” June 2000.
Page 4 - William A. Halter



Other CDR Measures

SSA already has the ability to show the current status of the CDR backlog in more
direct ways than citing the CDR multi-year plan. One way to do this is to report on the
number of CDRs due at the end of the year that fall outside of the SSA-defined "current
          5
backlog.” This indicator can be calculated by subtracting SSA's "current backlog"
figure from the number of CDRs coming due by the end of the FY. The remaining
CDRs represent the workload that cannot be worked timely.

An annual CDR backlog indicator would be consistent with: (1) requirements that SSA
become, and remain, current with its CDR workload; and (2) ongoing compliance audit
work at SSA. For example, SSA planned to be current with its DI CDR backlog by the
end of FY 2000, in compliance with Section 221(i) of the Social Security Act (see
Appendix C). In conducting the FY 2000 audit of SSA’s financial statements, auditors
will test the CDR-related data and information to verify compliance with provisions of
the Social Security Act related to CDRs.

Another advantage of developing a CDR backlog performance indicator not linked to
the CDR multi-year plan is SSA's ability to use this measure after FY 2002 when the
current multi-year plan expires. Once the special authorizations for CDRs expire in
FY 2002, SSA will be in a position where it has to develop a new backlog performance
indicator if it wants to keep Congress informed on this workload. A performance
indicator showing the annual status of the CDR backlog compared to the Agency's
workload capacity provides the Congress with a clear measure of SSA's ability to
reduce this CDR backlog, and then remain current with the reviews.

CONCLUSIONS AND RECOMMENDATIONS
Wile SSA’s reported statistics indicate a high level of productivity with regard to CDRs,6
SSA was unable to provide the information requested to test the reliability of the CDR
multi-year plan. GPRA requires agencies to provide a basis for comparing actual
program results with the established performance goals. SSA was unable to provide
complete files containing support for the individuals eligible for a CDR at the start of FY
1998. As a result, we were unable to verify the information in the CDR multi-year plan.




5
 SSA defines "current backlog" as about a 1-year workload of full medical reviews and a
6-month workload of CDR mailers.
6
    See chart on page A-5.
Page 5 -William    A. Halter


In addition, SSA's performance indicator for the COR backlog could be improved to
provide an annual status on compliance with laws and regulations. In future periods,
we recommend that SSA:

1 Maintain records for at least 3 years to support those individuals eligible for CDRs
    as part of its GPRA goal so that a third party can fully assess the reliability of SSA's
    reporting.

2   Consider a new performance indicator for the COR backlog so that SSA has an
    annual measure consistent with COR legislative requirements that will remain
    meaningful beyond FY 2002. If a new performance measure is not developed,
    when reporting on its GPRA measures, SSA should disclose any restatement of
    prior-year COR performance indicators resulting from adjustments to the multi-year
    plan.

AGENCY       COMMENTS

In response to our draft report, SSA agreed with our recommendations.        (See
Appendix D for SSA's comments.)
                                     Appendices
Appendix A – Background
Appendix B – Scope and Methodology
Appendix C – Summary of Selected Continuing Disability Review
             Legislative Provisions

Appendix D – Agency Comments

Appendix E – OIG Contacts and Staff Acknowledgments

                                                                                             Appendix A

BACKGROUND
The Social Security Administration (SSA) has been required to conduct periodic
continuing disability reviews (CDRs) on individuals receiving Disability Insurance (DI)
benefits since the early 1980s.1 Congress has enacted new legislation since 1994 that
requires CDRs and redeterminations on Supplemental Security Income (SSI) recipients
as well. For example, the Personal Responsibility and Work Opportunity Reconciliation
Act of 1996, Public Law (P.L.) 104-193,2 required additional CDRs and
redeterminations related to a portion of the SSI workload. Under this legislation, SSA
must perform:

(1) disability redeterminations for 18 year olds using adult eligibility criteria for initial
    claims;
(2) CDRs not later than 12 months after birth for children for whom low birth-weight is a
    contributing factor material to the determination of disability; and
(3) CDRs at least once every 3 years for all children under age 18 with impairment(s)
    that are likely to improve (or, at the option of the Commissioner, recipients whose
    impairments are unlikely to improve).

The Contract with America Advancement Act of 1996, P.L. 104-121, provided more
than $4 billion in funding for the period from the beginning of fiscal year (FY) 1996
through FY 2002 to assist SSA in performing CDRs so it could become current with
these reviews. Appendix C provides a list of relevant legislation.

PROCESSING CDRs

SSA conducts CDRs using one of two methods: full medical reviews or questionnaires
(mailers).

      •	 Full medical reviews are primarily conducted by Disability Determination Services
         (DDS) offices located in each State,3 whose administrative costs are funded by
         SSA. SSA’s folder processing centers send the case folder (which contains
         background and medical information on the individual) selected for a full medical
         CDR to the appropriate SSA field office (FO) for development. FO personnel
         review the information in the case folder, interview the individual, and update
         pertinent facts in the folder prior to sending the case to the DDS office for a full

1
 The purpose of a CDR is to determine whether a disabled beneficiary is still medically eligible to receive
benefits.
2
    P.L. 104-193 is often referred to as the Welfare Reform law. See Section 212.
3
  DDS offices are located in all 50 States, the District of Columbia, Guam, Puerto Rico and the Virgin
Islands.



                                                       A-1
      medical review. DDS medical examiners, using information in the case folder,
      determine if additional tests are necessary. Based on this information, a
      determination is made as to whether the individual is still disabled.

   •	 CDR mailers are electronically readable forms — similar to other mass
      questionnaires released by SSA. The mailer asks six questions and can be sent
      in English or Spanish. The mailer asks whether the beneficiary/recipient has
      been employed, attended school or training, been told by a doctor whether he or
      she can work, has gone to a doctor or clinic for treatment, or has been
      hospitalized or had surgery. The individual only needs to check a box to answer
      each of these questions. SSA then utilizes computer programming to determine
      whether to: (1) defer a full medical CDR; or (2) refer the case for a full medical
      review.

CDR MULTI-YEAR PLAN

In August 1996, SSA issued a 7-year plan for processing CDRs to meet the provisions
of P.L. 104-121. SSA updated this multi-year plan in March 1998 to reflect changing
conditions as a result of additional workloads, new legislation, new data and revised
assessments. The March 1998 plan estimated that 9.3 million CDRs will have been
completed between FYs 1996 and 2002 (see Figure A-1).

                         Figure A-1: SSA's CDR Multi-Year Plan

                  2,000
                  1,800
        Number of 1,600
                  1,400
          CDRs    1,200
        Processed 1,000
            (In     800                                            Full Medical
                    600                                            Mailer
       Thousands)   400
                    200
                      0
                            '96 '97 '98 '99 '00 '01       '02
                                      Fiscal Year
           Note: Numbers for FYs 1996 - 1998 represent actual counts
           reported by SSA.


SSA's goal is to become current with its CDR backlog. SSA defines the term "CDR
backlog" as a group of beneficiaries:

   �	 who have been found disabled on the basis of a favorable determination on an
      initial claim or subsequent CDR/SSI disability redetermination made by a Federal
      decision maker (Federal DDS, Office of Hearings and Appeals, or the Federal
      Courts) or a State DDS authorized to make determinations for the
      Commissioner;


                                              A-2
   �   who have a matured medical reexamination diary, the diary information is blank,
       or in the case of certain SSI disabled children cases, a review is required; and
   �   whose cases are otherwise workable.

To be "current" with the backlog under its own definition, SSA would need to reduce the
backlog to about 1 year's workload for full medical reviews and a 6-month workload for
CDR mailers. These time periods represent the approximate amount of time from start
to finish for each of these types of reviews.

In developing the CDR multi-year plan, SSA has exempted certain groups of disabled
individuals from a future review, stating "Exempt cases represent those groups of cases
that are known to be much less productive or unproductive under the existing CDR
processes…or are under study to determine how they should be reviewed in order to be
productive." These groups and the number of beneficiaries included (as of March
1998) are shown in Table A-1.

                Table A-1: Exempt Workloads by Disability Program


              DI Exemptions                                SSI Exemptions

 Disabled adults age 62-65                   Disabled adults age 65 or older
   585,000 individuals                         678,000 individuals
 Disabled surviving spouses aged 60 and      Disabled adults under age 65
 over                                        "grandfathered in" from old State programs
   83,000 individuals                          79,000 individuals
 Disabled adult children age 65 and over     Permanently impaired children
   60,000 individuals                          70,000 individuals
 Medicare for Qualified Government
 Employment
   Number Unknown
   Total DI Count: 728,000 individuals           Total SSI Count: 827,000 individuals

Preparing the CDR multi-year plan requires both baseline data on those eligible for a
CDR at a particular point in time, as well as assumptions about:

   �   the type of CDR to be performed (i.e., full medical review or mailer);
   �   the expected results of those CDRs and the likelihood that another CDR will be
       due on an individual during the 7-year period of the plan; and
   �   expected new awards during the 7-year period that will require a CDR at some
       point during this time period.




                                           A-3
Figure A-2 shows the flow of the CDRs under the multi-year plan. SSA makes a
number of assumptions on the baseline data using its profiling criteria. The profiling
system uses data from SSA’s records to determine the likelihood of medical
improvement for disabled individuals. Factors such as an individual's age, the type of
disability, and the results of previous CDRs are used to determine whether a full
medical review or a mailer questionnaire is appropriate. In general, those individuals
determined to have a low likelihood of medical improvement are sent mailers. Cases
that are profiled as having a mid-range to high likelihood of medical improvement are
scheduled for full medical CDRs rather than mailers.4


                               Figure A-2: CDR W orkload
                                        M edical Diaries Reset for
                                                                                  Disability
                                             A Future CDR
                                                                                  Continues

                                                                                         No Longer
                                             Full M edical CDR                           Disabled -
                                                                                          Benefits
                                                            Mailer Referred For a          Cease
                           Profiling*                       Full M edical Review


                                                 CDR M ailer
    Backlog CDR
    Candidates &                                                                 Full Medical
                                        M edical Diaries Reset for             Review Deferred -
    New Aw ards                              A Future CDR                          Disability
                                                                                  Continues
                    *Determ ines likelihood of improvement based
                    on age, previous review results, impairment
                    and other factors. Individuals with a “High”
                    or “Medium” likelihood of improvem ent
                    receive full medical CDRs. Those with a
                    “Low” likelihood of im provement are sent
                    CDR mailers.



MULTI-YEAR PLAN AS A PERFORMANCE MEASURE
                                                                              5
The Government Performance and Results Act of 1993 (GPRA) requires SSA to
develop performance indicators that measure or assess the relevant outputs, service
levels and outcomes of each program activity. GPRA also calls for a description of the
means employed to verify and validate the measured values used to report on program
performance. SSA has stated that the Office of the Inspector General plays a vital role
in evaluating the data used to measure performance.

4
 SSA is currently in the process of refining its profiling system to reduce the Agency's dependency on full
medical reviews.
5
    P.L. 103-62.


                                                     A-4
One of the GPRA performance measures established by SSA is completing a specific
percentage of its CDR multi-year plan. As of the end of FY 1999, SSA reported it had
completed 45.9 percent of the CDR multi-year plan (see Table A-2). SSA's GPRA goal
for FY 1999 was completing 44 percent of the multi-year plan.

                 Table A-2: Percent of CDR Multi-Year Plan Completed

                                      FY 1996              FY 1997                FY 1998                FY 1999
 Percent of Plan Completed          6.1%              13.5%              27.7%             45.9%
Note: Data taken from SSA's FY 1999 Accountability Report. All percentages represent "actual"
percentages reported to Congress.

SSA reports to Congress on the CDR results in a number of ways. SSA reports on the
number of periodic CDRs performed annually as a separate GPRA performance
indicator. In addition, periodic CDRs is one of the measures reported to Congress to
gauge SSA’s progress in meeting workload goals proposed in its budget.

Finally, SSA is required to report to Congress the number of periodic CDRs performed
each year to meet three legislative requirements: (1) the Social Security Act requires
SSA to report to Congress annually on the results of periodic CDRs; (2) the Contract
with America Advancement Act of 1996 requires that SSA provide an annual status
report on the number of periodic CDRs performed, the cost to perform these reviews,
and the expected program cost savings that will result from these reviews; and (3) the
Welfare Reform law requires SSA to report on the number of SSI CDRs and
redeterminations in an annual report on the SSI program.

By the end of FY 1999, SSA had reported to Congress that it completed approximately
4.3 million CDRs under its multi-year plan. During FYs 1997 through 1999, SSA
reported that it exceeded the planned number of CDRs (see Figure A-3).



                   Figure A-3: CDR Workload, FYs 1996-1999
                   1999

                   1998

                   1997

                   1996

                          0           500,000          1,000,000          1,500,000          2,000,000

                               1996             1997               1998               1999
                Actual        498,445       690,478           1,391,889          1,703,414
                Planned       500,000       603,000           1,245,000          1,637,000




                                                   A-5
                                                                                     Appendix B

SCOPE AND METHODOLOGY
The objective of this review was to assess the reliability of the data used by the Social
Security Administration (SSA) to measure the percentage of the continuing disability
review (CDR) multi-year plan completed by the end of Fiscal Year (FY) 1999. In
performing this review we:

    •	 reviewed relevant SSA documents related to the CDR multi-year plan, including
       the March 1998 revision to the multi-year plan and SSA's FY 1999 Accountability
       Report;

    •	 interviewed Office of Disability (OD) and Office of the Actuary (OACT) staff to
       understand how the CDR multi-year plan was established and calculated;

    •	 requested a copy of the baseline data from OD to support the initial figures
       utilized by the OACT;

    •	 reviewed actuarial spreadsheets to document how baseline data provided by OD
       was modified under the stated actuarial assumptions; and

    •   reviewed pertinent laws and regulations related to CDRs.

We did not review the CDR process or the workload counts since these areas were the
                                                                 1
subject of earlier Office of the Inspector General (OIG) reviews. We performed our
review in Baltimore, Maryland and Boston, Massachusetts between April and June
2000. The entities reviewed were the Office of Disability under the Deputy
Commissioner for Disability and Income Security Programs; and the Office of Budget
under the Deputy Commissioner for Finance, Assessment and Management.




1
 SSA/OIG A-01-98-94003, “Performance Measure Review: Continuing Disability Review Data Collection
at the Disability Determination Services,” September 1999; and SSA/OIG A-01-99-91002, “Performance
Measure Review: Reliability of the Data Used to Measure Continuing Disability Reviews,” June 2000.
                                                                                                        Appendix C

SUMMARY OF SELECTED CONTINUING DISABILITY
REVIEW LEGISLATIVE PROVISIONS
                                                                                                         PROGRAM
  LEGISLATION             DATE ENACTED                     SELECTED PROVISIONS                           INVOLVED
Section 221(i) of the   Act amended on June 9,     1) Report to Congress annually on the results            Disability
Social Security Act     1980 by Public Law              of periodic continuing disability reviews        Insurance (DI)
                        (P.L.) 96-265; on               (CDR) required to be performed on a
                        January 12, 1983 by P.L.        beneficiary at least once every 3 years.
                        97-455, and on             2)   Report to Congress annually with respect
                        November 10, 1988 by            to determinations that the Commissioner
                        P.L. 100-647                    has made, on a State-by-State basis, to
                                                        waive the requirement that the continuing             DI
                                                        eligibility of disability beneficiaries with
                                                        nonpermanent disabilities be reviewed at
                                                        least once every 3 years.

Social Security         August 1994                1) Conduct medical reviews on at least one-                SSI
Independence and                                        third of individuals attaining age 18 each
Program                                                 year during Fiscal Years (FY) 1996
Improvements Act of                                     through 1998. Report to Congress by
1994 (P.L. 103-296)                                     October 1, 1998. (Note A)
Sections 207 and 208                               2)   Conduct at least 100,000 CDRs annually                SSI
                                                        on Supplemental Security Income (SSI)
                                                        recipients for the period October 1995
                                                        through September 1998. Report to
                                                        Congress by October 1, 1998.

Contract with America   March 1996                 1) Conduct redeterminations by                           DI/SSI
Advancement Act of                                      January 1, 1997 for beneficiaries for whom
1996 (P.L. 104-121)                                     Drug Addiction and/or Alcoholism (DAA) is
Sections 103 and 105                                    a contributing factor material to the finding
(Note B)                                                of disability and who timely reapply for
                                                        benefits.
                                                   2)   Report to Congress annually for FYs 1996
                                                        through 2002 on the amount of money                 DI/SSI
                                                        spent on CDRs, the number of reviews
                                                        conducted by category, the results of such
                                                        reviews by program and the estimated
                                                        savings by program over the short-,
                                                        medium- and long-term.




                                                        C-1

                                                                                                            PROGRAM
   LEGISLATION               DATE ENACTED                      SELECTED PROVISIONS                          INVOLVED
 Personal                 August 1996                  1) Redetermine eligibility for children                  SSI
 Responsibility and                                         considered disabled based on the
 Work Opportunity                                           comparable severity standard and/or
 Reconciliation Act of                                      maladaptive behavior. (Note D)
 1996 (P.L. 104-193)                                   2)   Conduct CDRs not less than once every 3             SSI
 Sections 211, 212 and                                      years for recipients under age 18 with
 231                                                        impairments that are likely to improve.
 (Note C)                                              3)   Conduct CDRs not later than 12 months               SSI
                                                            after birth for children for whom low birth-
                                                            weight is a contributing factor material to
                                                            the determination of disability. (Note D)           SSI
                                                       4)   Redetermine eligibility during the 1-year
                                                            period beginning on the individual’s 18th
                                                                                                                SSI
                                                            birthday using the adult initial eligibility
                                                            criteria. (Note D)
                                                       5)   Report annually on the SSI program,
                                                            including in the report data on the number
                                                            of redeterminations and CDRs, and the
                                                            outcomes of such reviews and
                                                            redeterminations.

 Balanced Budget Act      August 1997                  1) Extends from 12 months to 18 months the               SSI
 of 1997                                                    amount of time for redetermining the
 (P.L. 105-33)                                              eligibility of children under age 18 using
 Subtitle B Sections                                        the new childhood disability standard and
 5107 and 5522                                              authorizes any redetermination missed
                                                            during that period to be performed as
                                                            soon as practicable thereafter.                     SSI
                                                       2)   Permits the Social Security Administration
                                                            (SSA) to schedule CDRs for low birth-
                                                            weight babies at a date after the first
                                                            birthday if the Commissioner determines
                                                            the impairment is not expected to improve
                                                            within 12 months of the child’s birth.              SSI
                                                       3)   Provides SSA with the authority to make
                                                            redeterminations of disabled childhood
                                                            recipients who attain age 18, using the
                                                            adult eligibility criteria, in lieu of a CDR,
                                                            whenever the Commissioner determines
                                                            that a case is subject to redetermination
                                                            under this clause.


Notes:       (A) Section 207 of P.L. 103-296 which contained these provisions was repealed by P.L. 104-193 on
                 August 22, 1996.
             (B) The legislation also authorized funds to be spent on performing the required periodic CDRs as follows:
                 for FY 1996, $260 million; for FY 1997, $360 million; for FY 1998, $570 million; and for FY 1999 though
                 FY 2002, $720 million annually (see Section 103).
             (C) The legislation authorized $150 million in FY 1997 and $100 million in FY 1998 in additional funds to
                 assist with these mandates.
             (D) Provisions modified by Sections 5105 and 5522 of the Balanced Budget Act of 1997.




                                                         C-2
                   Appendix D

AGENCY COMMENTS

COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON
THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT MANAGEMENT
ADVISORY REPORT: PERFORMANCE MEASURE FOR THE PERCENT
OF THE CONTINUING DISABILITY REVIEW (CDR) MULTI-YEAR PLAN
COMPLETED (A-01-00-10011)


We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

OIG Recommendation 1

SSA should maintain records for at least 3 years to support those individuals eligible for CDRs as
part of its Government Performance and Results Act (GPRA) goal so that a third party can fully
assess the reliability of SSA’s reporting.

Comment

We agree. SSA will maintain the master selection file for 3 years, beginning with the current
year’s file.


OIG Recommendation 2

Consider a new performance indicator for the CDR backlog so that SSA has an annual measure
consistent with CDR legislative requirements that will remain meaningful beyond fiscal year
(FY) 2002. If a new performance measure is not developed, when reporting on its GPRA
measures, SSA should disclose any restatement of prior-year CDR performance indicators
resulting from adjustments to the multi-year plan.

Comment

We agree. Effective with FY 2003, SSA will use a new indicator, "Percent of CDRs Completed
When Due." The Agency’s latest strategic plan, published in September 2000, states that this
will be the indicator used after FY 2002. The indicator will be discussed more fully in SSA’s FY
2002 Annual Performance Plan, which will go to Congress in April 2001.




                                           D-2
                                                                              Appendix E

OIG CONTACTS AND STAFF ACKNOWLEDGMENTS

    Rona Rustigian, Acting Director, (617) 565-1819

    Walter Bayer, Deputy Director, (215) 597-4080


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-10011.
